WAIVER
SUPREME COURT OF THE UNITED STATES ,
No.

Zo -7'16 7

29.28=1245

Alberto Solar-Somohano

The Coca-Cola Company, et al.
V.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Q
Q

The Coca-Cola Company

Please check the appropriate box:
I am.a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System: The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court., Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Offi ,
' st Street, NE, Washington, D.C. 20543).
Signature:

3NI-1

Date:

(Type or print) Name John C. Rawls, Ill
Mr.

0 Ms.

0 Mrs.

Firm

Baker Williams Matthiesen LLP

Address

5005 Wbodway Drive, Suite 201

City & State

Houston, Texas

Phone

713-888-3535

0 Miss

Zip 77056
Email rocky@bwmtx.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the ,
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Alberto Solar-Somohano, Petitioner; Jennifer L. Utrecht, counsel for intervenor U.S. Department of
Justice; Thomas L. Casagrande, counsel for Intervenor United States Patent and Trademark Office

